Case: 19-20757

Document: 00515438787

Page: 1

Date Filed: 06/03/2020

IN THE UNITED STATES COURT OF APPEALS
United States Court of Appeals
FOR THE FIFTH CIRCUIT
Fifth Circuit

FILED
June 3, 2020

No. 19-20757
Summary Calendar

Lyle W. Cayce
Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee
v.
SERGIO MADRIZ SANDOVAL,
Defendant-Appellant
Appeal from the United States District Court
for the Southern District of Texas
USDC No. 4:19-CR-165-1
Before JOLLY, JONES, and SOUTHWICK, Circuit Judges.
PER CURIAM:*
Sergio Madriz Sandoval has appealed his conviction of illegal reentry
after removal in violation of 8 U.S.C. § 1326. He contends that the district
court erred in denying his motion to dismiss the indictment in light of Pereira
v. Sessions, 138 S. Ct. 2105 (2018). He concedes that his legal contentions are
foreclosed, and he raises them to preserve them for further review. See United
States v. Pedroza-Rocha, 933 F.3d 490, 496-98 (5th Cir. 2019), cert. denied 2020

Pursuant to 5TH CIR. R. 47.5, the court has determined that this opinion should not
be published and is not precedent except under the limited circumstances set forth in 5 TH
CIR. R. 47.5.4.
*

27

Appendix G

Case: 19-20757

Document: 00515438787

Page: 2

Date Filed: 06/03/2020

WL 2515686 (U.S. May 28, 2020) (No. 19-6588); Pierre-Paul v. Barr, 930 F.3d
684, 689-93 (5th Cir. 2019), cert. denied 2020 WL 1978950 (U.S. Apr. 27, 2020)
(No. 19-779). The Government has filed an unopposed motion for summary
affirmance.
Because there is no substantial question as to the outcome of this case,
the motion for summary affirmance is GRANTED.

The Government’s

alternative motion for an extension of time within which to file a brief is
DENIED. The judgment is AFFIRMED.

28

